HHS/OIG, Audit -"State of Florida's Efforts to Account for and Monitor Sub-Recipients' Use of Bioterrorism Hospital Preparedness Program Funds, Florida Department of Health,"(A-04-03-01008)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"State of Florida's Efforts to Account for and Monitor Sub-Recipients' Use of Bioterrorism Hospital Preparedness
Program Funds, Florida Department of Health," (A-04-03-01008)
October 21, 2003
Complete
Text of Report is available in PDF format (318 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that the Florida Department of Health (Florida)
generally accounted for program funds ($6.4 million received for the 2-year period ending March 31, 2004) in accordance
with the terms and conditions of the cooperative agreement with the Health Resources and Services Administration (HRSA)
and applicable departmental regulations and guidelines.  Florida did not segregate expenditures by phase, within phase,
or by priority area in its accounting system; however, Florida tracked expenditures by phase and priority area on spreadsheets.  Although
segregation was not required, budget restrictions were specified in the cooperative agreement.  Florida officials
acknowledged the importance of tracking expenditures in order to comply with the budget restrictions.  In addition,
Floridas sub-recipients must submit reports on their activities and expenditures.  Although Florida officials had
not completed any site visits to sub-recipients, it was in the process of developing a site visit component.  Further,
Florida officials stated that HRSA funding had not been used to supplant programs previously provided by other organizational
sources.  We recommended Florida make changes to its accounting system to segregate expenditures by phase and priority
area; and, implement the site visit component and address problem areas as they are identified.  Florida concurred
with our findings and recommendations and stated it would take the necessary steps to fully comply with the HRSA grant
guidelines.